KIRKLAND & ELLIS LLP

AND AFFILIATED PARTNERSHIPS

300 North LaSalle

Chicago, IL 60654
Russell E. Levine, P.C. United States
To Call Writer Directly: Facsimile:
+1 312 862 2466 +1 312 862 2000 +1 312 862 2200
rlevine@kirkland.com
www. kirkland.com
May 15, 2020

Via Electronic Filing

Honorable Scott S. Harris

Clerk

Supreme Court of the United States
Washington, D.C. 20543

Re: — Willowood, LLC v. Syngenta Crop Protection, LLC, No. 19-1147
Dear Mr. Harris:

I write on behalf of Respondent Syngenta Crop Protection, LLC. The petition for a writ
of certiorari in the above-captioned case was filed on March 17, 2020. On April 23, 2020, this
Court requested a response, which is currently due on May 26, 2020. We respectfully request a
30-day extension of time to and including June 25, 2020, within which to file a response.

This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with previously assigned

matters with proximate due dates.

Very Truly Yours,

eZ

Russell E. Levine, P.C.

Enclosure
ce: Steven E. Tiller

Barry S. Neuman
Barry E. Bretschneider

Beljing Boston Dallas HongKong Houston London Los Angeles Munich NewYork Palo Alto Paris San Francisco Shanghai Washington, D.C.
